BECKER GALLAGHER
Briefs

and

Supreme Court ofthe United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-794
SERVOTRONICS, INC.,

Petitioner,
V.

ROLLS-ROYCE

PLC AND THE BOEING COMPANY,
Respondents.

As required by Supreme Court Rule 33. l(h), I
certify that the Brief of the International Institute for
Conflict Prevention & Resolution as Amicus Curiae in
Support of Petitioner contains 5,082 words, excluding
the parts of the Brief that are exempted by Supreme
Court Rule 33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on January 5, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite 102

Franklin Square
1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

V

JOHN D. GALLAGHER
Notary Putn:, State Gf Ohio
My Commission Expires
February 14, 2023

